A. P P E E I) I. X

:

A;

USCA11 Case: 20-12625

Date Filed: 12/02/2020

Page: 2 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12625-E

NOLBERTO MARTINEZ,
Petitioner - Appellant,
versus
WARDEN, FCC COLEMAN - LOW,
Respondent - Appellee.

Appeal from the United States District Court
for the Middle District of Florida
ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Nolberto Martinez has failed to pay the filing and
docketing fees to the district court within the time fixed by the rules., effective December 02,
2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Gloria M. Powell, E, Deputy Clerk
FOR THE COURT - BY DIRECTION

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12625-E

NOLBERTO MARTINEZ,
Petitioner-Appellant,
versus
WARDEN, FCC COLEMAN - LOW,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Nolberto Martinez is a federal prisoner serving a 360-month sentence for distribution of
cocaine and conspiracy to possess with intent to distribute cocaine. In 2019, he filed the instant
28 U.S.C. § 2241 petition challenging the validity of his conviction and sentence. The district
court sua sponte dismissed his petition, finding that it did not have jurisdiction over his claims
because he was challenging the validity of his sentence, and therefore could not pursue relief
under § 2241. The district court denied him leave to proceed in forma pauperis (“IFP”), and
Martinez now seeks IFP status from this Court.
Because he seeks leave to proceed IFP from this Court, his appeal is subject to a frivolity
determination. See 28 U.S.C. § 1915(e)(2)(B)(i). An action is frivolous if it is without arguable
merit in either law or fact. Napier v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002).

“Section 2255(e) makes clear that a motion to vacate is the exclusive mechanism for a
federal prisoner to seek collateral relief unless he can satisfy the ‘saving clause’ at the end of that
subsection.” McCarihan v. Dir. of Goodwill Indus.-Suncoast, Inc., 851 F.3d 1076,1081 (11th Cir.
2017) (en banc). The “saving clause” of § 2255(e) permits a federal prisoner to challenge his
sentence without filing a § 2255 motion only where “the remedy by motion is inadequate or
ineffective to test the legality of his detention.” 28 U.S.C. § 2255(e).

In McCarihan, we

determined that that, if a prisoner’s claim merely challenges “the validity of his sentence,” he
cannot proceed under § 2241 because he could raise such a claim in a 28 U.S.C. § 2255 motion,
McCarihan, 813 F.3d at 1089.
Here, because Martinez challenged the validity of his sentence, and he could have raised
such a claim in a § 2255 motion, he has failed to show that a motion to vacate would be an
inadequate or ineffective remedy. See id. at 1081, 1086-89. Accordingly, he cannot satisfy the
saving clause, and any appeal would be meritless. See 28 U.S.C. § 2255(e); Napier, 314 F.3d at
531.
Martinez’s motion for leave to proceed IFP is DENIED.

/s/ Kevin C. Newsom
UNITED STATES CIRCUIT JUDGE

2

A P P E i\T D I X

B

r

:

oa^sas7£w-owMMt>u^fctdt±mh'KLDdmtrnmarvt b FHiMiaJ0il3JM2OPafSa§9D63DPa§M§feJQ 41

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
NOLBERTO MARTINEZ,
Petitioner,
v.

Case No: 5:19-cv-504-Oc-36PRL

WARDEN, FCC COLEMAN - LOW,
Respondent.

ORDER DISMISSING CASE
Petitioner, proceeding pro se, is a federal inmate who initiated this case by filing a petition
for writ of habeas corpus pursuant to 28 U.S.C. § 2241.

(Doc. 1.)

sentence, imposed on January 22, 2015, was unconstitutionally enhanced.

Petitioner alleges his
Id.

Collateral attacks on the legality of a sentence must be brought under 28 U.S.C. § 2255.
The “savings clause” of § 2255(e) permits a federal prisoner to challenge his sentence pursuant to
§ 2241 only where “the remedy by motion is inadequate or ineffective to test the legality of his
detention.” 28 U.S.C. § 2255(e). The petitioner bears the burden of demonstrating that a § 2255
motion is “inadequate or ineffective.”

McCarthan v. Dir. ofGoodwill Indus. -Suncoast, Inc. ,851

F.3d 1076, 1081 (11th Cir. 2017) (en banc).
The United States Court of Appeals for the Eleventh Circuit has held that 28 U.S.C. § 2241
is not available to challenge the validity of a sentence except on very narrow grounds.
McCarthan, 851 F.3d at 1079. “McCarthan gave three examples of when a motion to vacate
would be an inadequate mechanism to test a prisoner’s claim: (1) if a federal prisoner challenges
the execution of his sentence, e.g., the deprivation of good-time credits or parole determinations;
(2) if the sentencing court is unavailable or has been dissolved; or (3) if practical considerations,

CaSa§d.9fS:9-QO5!O0&CB6BfflHRPRLD©3MXiBTtti'l 5 FFtftetl(lB/IS?fflE0Pa|fe§aD83DPa|M§)eB3 43

DONE AND ORDERED at Ocala, Florida, on June 30, 2020.

Charlene Edwards Honeywell
United States District Judge
Copies to: Nolberto Martinez,pro se

3

